                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                            FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                     Alabama Secretary of State



                   APRIL 30, 2003 THROUGH JANUARY 31, 2010




Report No.
E-HP-AL-06-10
January 2011
                         U.S. ELECTION ASSISTANCE COMMISSION

                                 OFFICE OF INSPECTOR GENERAL

                                1201 New York Ave. NW - Suite 300

                                      Washington, DC 20005



                                                                                   January 28, 2011

Memorandum


To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Alabama Secretary of State (Assignment Number E-HP-AL-06-10)

      We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Alabama Secretary of State (SOS). The contract required that the audit be
done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that the SOS generally accounted for
and expended HAVA funds in accordance with the HAVA requirements and complied with the
financial management requirements established by the U.S. Election Assistance Commission.
However, the audit disclosed that the SOS did not maintain personnel certifications, failed to
maintain adequate property records or security over HAVA funded equipment, did not properly
approve expenditures for sub-awards to counties, incurred questioned costs by using HAVA funds
for non-qualifying promotional activities, and failed to deposit state and county program income
from the sale of voter registration lists to the HAVA fund.

        In its June 30, 2010 response (Appendix A-1), the SOS agreed with the report’s findings and
recommendations, except for depositing the program income to the election fund, and provided
corrective action.

        On October 29, 2010, the EAC response (Appendix A-2) indicated general agreement with
the report findings and recommendations, and stated that they would work with the state to resolve
the disagreement. We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in writing to
the finding and recommendation included in this report by March 28, 2011. Your response should
include information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                      
                      
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

         STATE OF ALABAMA


  April 30, 2003 Through January 31, 2010


           UNITED STATES

  ELECTION ASSISTANCE COMMISSION

                   
                   
                   
                   
                      
                      




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 4

APPENDICES


Appendix A-1: Secretary of State Responses to Audit Results ........................................... 11

Appendix A-2: U. S. Election Assistance Commission Response to Draft Report............. 13

Appendix B: Audit Methodology ............................................................................................ 14

Appendix C: Monetary Impact as of January 31, 2010 ......................................................... 16
                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                    Help America Vote Act by the State of Alabama


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Alabama
Secretary of State (SOS) for the period April 30, 2003 through January 31, 2010 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments; and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution. We did not include a determination of whether the SOS and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission is reviewing its guidance on the applicability of the maintenance of a base level of
state outlays to the SOS’s subgrantees. Since there was no definitive guidance during the audit
period, Maintenance of Effort was not included in the scope of our audit procedures. On June
28, 2010, the Commission issued its revised guidance on the Maintenance of Expenditures
(MOE) requirement, which includes a provision that the states will have 12 months from the date
of the policy tRYROXQWDULO\ submit aQDPHQGHG MOE plan to the EAC.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the lack of personnel certifications, lack of approval of expenditures for sub-awards to
counties, failure to maintain adequate property records, lack of security over HAVA funded
equipment, questionable use of HAVA funds for promotional activities, and failure of the state
and counties to deposit program income related to the sale of voter registration lists to the
HAVA fund, as discussed below, our audit concluded that the SOS generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period



                                                1
	
from April 30, 2003 through January 31, 2010. The exceptions needing SOS’s management
attention are as follows:

   •	 The SOS lacked appropriate documentation or semi-annual certifications to support
      personnel costs charged to HAVA totaling $62,695.92.
   •	 Controls over sub-awards granted to counties did not ensure that expenditures were
      allowable in accordance with the guidelines established by the SOS for five of the 47
      counties selected for testing.
   •	 Property records were not maintained in accordance with federal regulations and the
      equipment was not properly secured. Controls over equipment purchased with HAVA
      funds at the counties did not ensure retention of physical possession of all equipment.
   •	 Controls over expenditures were not adequate to ensure expenditures were allowable in
      accordance with Section 101 HAVA funds.
   •	 The SOS has not deposited program income generated by the state and the counties
      from the sale of voter registration lists into the HAVA election fund.

We have included in this report as Appendix A-1 the SOS management’s formal response on
June 30, 2010, to our notice of findings and recommendations (NFRs). In an October 14, 2010
email response to the draft report, SOS management confirmed that there were no changes to
the previous responses. Although we have included management’s written responses to our
NFRs, such responses have not been subjected to the audit procedures and, accordingly, we do
not provide any form of assurance on the appropriateness of the responses or the effectiveness
of the corrective actions described therein.

The draft report, including the SOS responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on October 29, 2010, and generally agreed
with the report’s findings and recommendations and the Alabama official’s iresponse. Although
the Alabama official disagreed that the program income should be deposited to the election
fund, the EAC stated that they would work with the state to resolve the issue. The EAC’s
complete response is included as Appendix A-2.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
      uniform and nondiscriminatory election technology and administration requirements,
      improving the administration of elections for federal office, educating voters, training
      election officials and poll workers, and developing a state plan for requirements
      payments.

   •	 Title I, Section 102 payments are available only for the replacement of punch card and
      lever action voting systems.

   •	 Title II, Section 251 requirements payments are for complying with Title III requirements
      for voting system equipment; and for addressing provisional voting, voting information,
      statewide voter registration lists, and voters who register by mail.




                                                2
	
Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
       activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
       at a level that is not less than the level of such expenditures maintained by the state for
       the fiscal year ending prior to November 2000.” [Section 254(a)(7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
       activities for which the requirements payment is made,” for the Federal requirements
       payments received, for “such other amounts as may be appropriated under law,” and for
       “interest earned on deposits of the fund.” [Section 254)(b)(1)].

AUDIT OBJECTIVES
The objectives of our audit were to determine whether the Alabama SOS:
    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;
    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;
    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the SOS met the requirement for
         maintenance of a base level of state outlays, because the Commission is reviewing its
         guidance on the applicability of the maintenance of a base level of state outlays to
         subgrantees of the SOS. Since there was no definitive guidance during the audit period,
         Maintenance of Effort was not included in the scope of our audit procedures. On June
         28, 2010, the Commission issued its revised guidance on the Maintenance of
         Expenditures (MOE) requirement, which includes a provision that the states will have 12
         months from the date of the policy to voluntarily submit an amended MOE plan to the
         EAC.
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3. Submit detailed annual financial reports on the use of Title I and Title II payments.

1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal


                                                         3
	
   SCOPE AND METHODOLOGY

   We audited the HAVA funds received and disbursed by the SOS from April 30, 2003 through
   January 31, 2010 (81-month period) as shown in the following table:
                                      FUNDS RECEIVED
   TYPE OF            EAC          PROGRAM          STATE        INTEREST         TOTAL     FUNDS                   DATA
   PAYMENT          PAYMENT         INCOME          MATCH         EARNED        AVAILABLE DISBURSED                 AS OF

Section 101          $ 4,989,605      $        0 $        0        $ 351,437      $ 5,341,042     $ 2,042,254     1/31/2010
Section 102               51,076               0          0             3,597          54,673             919     1/31/2010
Section 251           35,866,513               0  1,998,335         2,451,203      40,316,051      28,287,366     1/31/2010

Total                $40,907,194      $        0 $1,998,335        $2,806,237     $45,711,766      $30,330,539    1/31/2010

   Our audit methodology is set forth in Appendix B.

   AUDIT RESULTS

   We conducted this performance audit in accordance with Generally Accepted Government
   Auditing Standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
   based on our audit objectives. We believe that the evidence obtained provides a reasonable
   basis for our findings and conclusions based on the audit objectives. Because of inherent
   limitations, a study and evaluation made for the limited purposes of our review would not
   necessarily disclose all weaknesses in administering HAVA payments.

   Except for the lack of personnel certifications, lack of approval of expenditures for sub-awards to
   counties, failure to maintain adequate property records, lack of security over HAVA funded
   equipment, questionable use of HAVA funds for promotional activities, failure of the state and
   counties to deposit program income related to the sale of voter registration lists to the HAVA
   fund, and the determination of whether the SOS and its subgrantees met the requirement for
   maintenance of a base level of state outlays which were specifically omitted from our scope of
   work as explained above, our audit concluded that the SOS generally accounted for and
   expended HAVA funds in accordance with the requirements mentioned above. The SOS has
   taken action on or is working to resolve the exceptions described below as set forth in Appendix
   A-1:

   I.   Personnel Certifications

   The SOS did not complete semi-annual certifications for the one full-time employee that worked
   on the HAVA activities for the period of August 31, 2005 through September 30, 2006. There
   were also no timesheets available to verify the charged hours. However, the SOS did obtain the
   appropriate semi-annual certifications for the one full-time employee for the period from October


   previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
   year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
   20XX for the fiscal year ended that date and will be due by December 31, 20XX.




                                                            4
1, 2007 through September 30, 2009. There were no salaries and benefits charged to the HAVA
election fund for the period of October 1, 2006 through September 30, 2007.

The United States Election Assistance Commission (EAC) has no assurance that salaries and
fringe benefit costs of $62,695.92 paid to SOS staff using HAVA program funds were incurred
for work done solely on HAVA activities during the time period of August 31, 2005 through
September 30, 2006.

OMB Circular A-87, in Attachment B Section 8(h) (3) requires that:

       (3) Where employees are expected to work solely on a single Federal award or cost
       objective, charges for their salaries and wages will be supported by periodic
       certifications that the employees worked solely on that program for the period covered
       by the certification. These certifications will be prepared at least semi-annually and will
       be signed by the employee or supervisory official having first hand knowledge of the
       work performed by the employee.

The SOS serving during the period in question was not aware of this requirement.

Recommendation:

   1.		 We recommend that the EAC resolve with the SOS the appropriate corrective action
        regarding the lack of periodic certifications for the questioned period that personnel costs
        were paid from HAVA program funds.

SOS’s Response:

The SOS’s Office agreed to the finding and stated that the former SOS did not sign or keep
proper records as required by OMB Circular A-87. The current SOS took office in January
2007, and, in October 2007, the SOS’s Office began paying one full-time employee from HAVA
funds. Since that period, the SOS’s Office has maintained semi-annual certifications of work
done by that employee, which are signed by the SOS.


II.	 Sub-Awards to Counties

The SOS distributed sub-awards to counties to reimburse them for the purchase of voting
equipment necessary to comply with the HAVA. The counties seeking a sub-award from the
SOS were required to submit an application, which included documentation and affidavits to
support the amount of the requested sub-award as follows:

   1.		 The voting equipment was purchased under the Association of County Commissions of
        Alabama (ACCA) bid agreement.
   2.		 The type of voting equipment that was purchased and the amount paid for the
        equipment.
   3.		 Copies of invoices from the vendor and cancelled checks that show payment for the
        voting equipment purchased.
   4.		 A copy of the minutes at which the County Commission approved the purchase of the
        voting equipment.
   5.		 A signed and notarized affidavit that the voting equipment purchased is certified by the
        Alabama Electronic Voting Committee; has a certification number from either the


                                                5
	
        National Association of State Election Directors (NASED) or the EAC; and complies with
        Section 301 of HAVA.
   6.		 A signed and notarized affidavit that the county complied with and will continue to
        comply with all local, state and federal laws governing HAVA sub-awards.

To ensure the application received from the counties was complete the SOS completed an
internal checklist. When the internal checklist was complete the SOS approved the sub-award
amount to be remitted to the county.

During the testing of the HAVA sub-awards to counties, it was determined that five of the 47
sub-awards selected for testing did not comply with the administrative rules outlined above. We
determined that two counties did not provide the proper approval of their County Commission,
one county did not provide a signed and notarized affidavit that they complied with and will
continue to comply with all local, state and federal laws, the SOS did not complete an internal
checklist for one county, and the SOS reimbursed one county excess funds.

Under Circular A-87 Amendment A, Part C, No. 1, costs must meet the following general
criteria:

    •	 Be authorized or not prohibited under State or local laws or regulations.

    •	 Conform to any limitations or exclusions set forth in these principles, Federal laws,
       terms and conditions of the Federal award, or other governing regulations as to types or
       amounts of cost items.

    •	 Be consistent with policies, regulations, and procedures that apply uniformly to both
       Federal awards and other activities of the governmental unit.

    •	 Be adequately documented.
Improper approvals or lack thereof could lead to sub-awards made with HAVA funds for
expenditures that might not be allowable costs.

Recommendations:

We recommend that the SOS:

   2.		 Determine whether the sub-awards in question are allowable HAVA expenditures, and
        secure appropriate approvals.
   3.		 Review all sub-awards to counties to ensure that amounts paid were adequately
        supported by documentation and all payments were for qualified HAVA purposes.
   4.		 Request reimbursements from counties for all unauthorized payments.

SOS’s Response:

The SOS’s Office agrees with the finding, and stated that the former SOS administered the
grant program prior to the current SOS taking office in January 2007. The SOS’s Office will
determine whether the sub-awards in question are allowable HAVA expenditures and secure
appropriate approvals. The SOS’s Office will also review all sub-awards to counties to ensure
that amounts paid were adequately supported by documentation and all payments were for
qualified HAVA purposes.



                                               6
	
III. Property Management

Voting Equipment

Property Records:

During our review of the counties’ equipment/property management practices, we determined
that four of the seven counties we visited did not comply with the requirements of 41 CFR 105-
71.132 regarding the identification of equipment purchased with federal funds. The counties
could not locate equipment that was included on the inventory listings because the listings had
not been updated when equipment was replaced. The counties do not maintain property records
that include the following attributes: a description of the property, a serial number or other
identification number, the source of property, who holds the title, the acquisition date and cost of
the property, percentage of Federal participation in the cost of the property, the location, use
and condition of the property, and any ultimate disposition data including the date of disposal
and sales price of the property.

Moreover, the acquisition cost of ten printers included on the SOS’s statewide voter register
system equipment listing was misstated. The equipment listing indicated that the cost of each
printer was $500; however the invoice indicated a cost of $698.

       The Uniform Administrative Requirements for Grants and Cooperative Agreements with
       State and Local Governments 41 CFR § 105-71.132(d)(1) states that property records
       must be maintained that include a description of the property, serial number or other
       identification number, the source of property, who holds the title, the acquisition date,
       and costs of the property, percentage of Federal participation in the cost of the property,
       the locations, use and condition of the property, and any ultimate disposition data
       including the date of disposal and sale price of the property.

       The State Code of Alabama Section 36-16-8 requires additional information to be
       provided on equipment records such as custodial agency, responsible officer or
       employee, and state property control marking.

Security:

During our site visits we noted that two of the seven counties visited did not comply with the
requirements of 41 CFR § 105-71.132(d)(3) with regards to ensuring that adequate security is
provided at the location where the equipment is stored.

One county locks the doors to the room where the voting equipment is stored at night but the
doors are open during the day and accessible to the public who use the adjoining room. Another
county locks the doors to the rooms where the equipment is stored, but there are numerous
personnel with keys that can access the voting equipment. Neither of the counties has standard
security practices such as visitor logs, cameras or alarms.

       The Uniform Administrative Requirements for Grants and Cooperative Agreements with
       State and Local Governments 41 CFR § 105-71.132(d)(3) states that a control system
       must be developed to ensure adequate safeguards to prevent loss, damage or theft of
       the property. Any loss, damage or theft shall be investigated.



                                                 7
	
Recommendations:

We recommend that the SOS:

   5.		 Require staff of the counties to conduct a physical inventory of all HAVA-funded
        equipment in their possession and use the results to correct its property records.
   6.		 Ensure that the property management records of the counties have at least the minimum
        information required in the federal requirements of 41 CFR § 105-71.132 and the
        Alabama State Code Section 36-16-8.
   7.		 Ensure that the property records are updated to reflect the correct acquisition cost for
        the ten printers.
   8.		 Ensure that the property is secured in a manner consistent with the federal requirements
        of 41 CFR § 105-71.132.

SOS’s Response:

The SOS’s Office corrected the clerical error of the cost of ten printers listed in the property
management system. The SOS’s Office will also implement corrective action as follows:

    1. Require		 staff of the counties to conduct a physical inventory of all HAVA-funded
       equipment in their possession and use the results to correct its property records.
    2. Ensure that the property management records of the counties have at least the minimum
       information required in the federal requirements of 41 CFR § 105-71.132 and the
       Alabama State Code Section 36-16-8.
    3. Ensure that the property is secured in a manner consistent with the federal requirements
       of 41 CFR § 105-71.132.


IV. Expenditures

The SOS expended $26,459 in Section 101 HAVA funds for the “Take a Kid to Vote” project.
This included $23,229 for a booklet which was written for children who are not of voting age and
$3,230 for a radio advertisement which urged voters to take their children with them to the polls.
The radio advertisement did not contain educational information. These expenditures are
questionable uses of Section 101 HAVA funds.

Furthermore, we cannot conclude on the full amount expended on the “Take a Kid to Vote”
project due to the vague descriptions on the invoices received from radio vendors for advertising
costs.

HAVA Section 101(b)(1), subparts (B),(C) and (D) prescribe that HAVA funds can be used to
improve the administration of elections for federal office; educate voters concerning voting
procedures, voting rights, and voting technology; and training election officials, poll workers, and
election volunteers.

SOS officials were not aware that the “Take a Kid to Vote” project may not be an allowable cost
under Section 101 of HAVA.




                                                 8
	
Recommendation:

   9.		 We recommend that the EAC work with the SOS to resolve the issue of whether the
        costs associated with the “Take a Kid to Vote” project of approximately $26,459 are
        allowable uses of HAVA funds. If it is determined that the project is not an allowable use
        of HAVA funds, the SOS should also determine if any additional HAVA funds have been
        spent on the “Take a Kid to Vote” project.

SOS’s Response:

The SOS’s Office agrees to the finding. The previous SOS developed and approved the “Take a
Kid to Vote” project. The SOS’s Office will reimburse the HAVA Fund for the cost of the “Take a
Kid to Vote” project in the amount of $26,459.

Auditor’s Response:

The SOS’s Office should determine if there were any additional HAVA funds spent on the “Take
a Kid to Vote” project.


V.	 Program Income

The SOS has not deposited program income, generated by the SOS and the counties from the
sale of voter registration lists that was in excess of the costs associated with preparing the lists,
into the HAVA election fund. The SOS and three of the counties we visited prepared these lists
from the SOS’s HAVA funded voter registration system. The program income has also not been
reported to the EAC as required.

The state generates program income of approximately $88,000 per fiscal year from the sale of
voter registration lists. The voter registration system was complete as of the fiscal year ended
September 30, 2008. The state does not know the amount of expenditures they incurred to
generate the voter registration lists.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41CFR § 105-71.125, states that program income means gross
income received by the subgrantee directly generated by a grant supported activity, or earned
only as a result of the grant agreement during the grant period. Additionally, 41CFR § 105-
71.141 states that each grantee will report program outlays and program income on a cash or
accrual basis as prescribed by the awarding agency.

The EAC Advisory 07-002 – Program Income and Set-off of Cost Incident to Program Income
authorizes states to dedicate program income to the HAVA grant and use the income for
purposes and under conditions of the grant.
According to SOS election officials, the program income was deposited in an account to defray
the cost of voter registration within the state. Under county law, counties are required to deposit
the income into the counties’ general funds.

Recommendations:

We recommend that:



                                                 9
	
   10. The EAC work with the SOS to resolve the conflict between federal, state and county
       law which requires that program income be deposited in non-HAVA funds at the state
       and county levels.

   11. The SOS provide guidance to the counties on how to properly record and report program
       income received from the sale of voter registration lists generated from the state’s voter
       registration database. The SOS should also report such income to the EAC.

SOS’s Response:

The SOS’s Office strongly disagrees with the finding. The SOS does not believe the net income
from the sale of voter registration lists should be deposited into the HAVA election fund. The
information contained in the voter registration lists is owned by the state of Alabama. While
HAVA funds were used to upgrade the technology for managing the voter list, it is still the
property of the state of Alabama and state law provides that the income from the sale of the
vote list should be deposited into a specific state fund within the Secretary of State’s Office (Ala.
Code, 1975 §§ 17-4-34(10); 17-4-38) long before HAVA was enacted.

Auditor’s Response:

We will defer the resolution of the conflict between federal and state law to the EAC.

                                ****************************************

We provided a draft of our report to the appropriate individuals of the Alabama SOS and the
Commission. We considered any comments received prior to finalizing this report.

The EAC responded on October 29, 2010, and generally agreed with the report’s findings and
recommendations and the Alabama official’s response. Although the Alabama official disagreed
that the program income should be deposited to the election fund, the EAC stated that they
would work with the state to resolve the issue. The EAC’s complete response is included as
Appendix A-2.

CG performed its work between February 23, 2010 and March 11, 2010.


a1 
Calverton, Maryland
July 9, 2010




                                                  10
	
                                                                                               Appendix A-1


                          Secretary of State Responses to Audit Results2

                                           Response to NFR #1

The Secretary of State’s Office agrees to the finding. Then-Secretary of State Nancy Worley did
not sign or keep proper records as required by OMB Circular A-87. Secretary of State Beth
Chapman took office in January 2007. In October 2007 the Secretary of State’s Office started
paying one full time employee out of HAVA funds. Since that period, the Secretary of State’s
Office has kept semi-annual certifications of work done by that employee and signed by
Secretary Chapman.

                                           Response to NFR #2

The Secretary of State’s Office agrees with the finding. Then-Secretary of State Nancy Worley
administered the grant program prior to Secretary of State Beth Chapman taking office in
January 2007. The Secretary of State’s Office will validate the sub-awards in question as valid
HAVA expenditures, and secure appropriate approvals. The Secretary of State’s Office will also
review all sub-awards to counties to ensure that amounts paid were adequately supported by
documentation and all payments were for qualified HAVA purposes.

                                           Response to NFR #3

The Secretary of State’s Office has already corrected the clerical error of the cost of ten printers
listed in the property management system. The Secretary of State’s Office will take the following
actions:

        4.		 Require staff of the counties to conduct a physical inventory of all HAVA-funded
             equipment in their possession and use the results to correct its property records.
        5.		 Ensure that the property management records of the counties have at least the
             minimum information required in the federal requirements of 41 CFR § 105-71.132
             and the Alabama State Code Section 36-16-8.
        6.		 Ensure that the property is secured in a manner consistent with the federal
             requirements of 41 CFR § 105-71.132.

                                                Response to NFR #4

The Secretary of State’s Office agrees to the finding. Then-Secretary of State Nancy Worley
developed and approved of the “Take a Kid to Vote” project. The Secretary of State’s Office will
reimburse the HAVA Fund for the cost of the “Take a Kid to Vote” project, $26,459.




2The responses to our NFR (Notice of Findings and Recommendations) were received in writing. On October 14,
2010, Alabama election officials responded in an email that the responses included in this Appendix were still
applicable and no additional comments would be submitted.


                                                      11
	
                                           Response to NFR #5
	

The Secretary of State’s Office strongly disagrees with the finding. The Secretary of State’s
Office does not believe the net income from the sale of voter registration lists should be
deposited into the HAVA election fund. The information contained in the voter registration lists is
owned by the State of Alabama. While HAVA funds were used to upgrade the technology for
managing the voter list, it is still the property of the State of Alabama and state law provides that
the income from the sale of the vote list should be deposited into a specific state fund within the
Secretary of State’s Office (Ala. Code, 1975 §§ 17-4-34(10); 17-4-38) long before HAVA was
enacted.




                                                 12
	
                                                                           Appendix A-2



                     EAC RESPONSE TO THE DRAFT AUDIT:
                     OIG Performance Audit Report on the Administration of
                     Payments Received Under the Help America Vote Act by the
                     State of Alabama, for the Period April 30, 2003 Through
                     January 31, 2010.

October 29, 2010
	

MEMORANDUM
	

To:          Curtis Crider
             Inspector General

From:        Thomas Wilkey
             Executive Director

Subject:     Draft Performance Audit Report – “Administration of Payments
             Received Under the Help America Vote Act by the State of
             Alabama”.

Thank you for this opportunity to review and respond to the draft audit report for
Alabama.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the Alabama
Secretary of State (SOS) to ensure appropriate corrective action. Where the
SOS disagrees with the finding that net income from the sale of voter registration
lists should be deposited into the HAVA election fund, the EAC will work with the
SOS to address the issue.




                                       13
                                                                                       Appendix B
                                    AUDIT METHODOLOGY



Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate SOS employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last two years.

•	 Reviewed policies, procedures and regulations for the SOS’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the financial status reports, Form SF-269, accounting for property,
   purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                14
	
•	 Conducted site visits of selected counties to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding




                                               15
	
                                                                                                       Appendix C
                                                                                                                         


                 MONETARY IMPACT AS OF JANUARY 31, 2010



                                                             Questioned               Additional Funds for
                 Description                                   Costs                        Program
    Expenditures – “Take a Kid to Vote”
    booklet                                                         $26,459                                    $0

    Program Income – Sale of Voter
                                                                                                                 3
    Registration Lists                                                     $0                                 $0

    Semi-annual certifications of full-time
    employment on HAVA activities not filed                         $62,696                                    $0

    Totals                                                          $89,155                                    $0
 




3  The SOS could not determine the amount of the expenditures that were incurred to generate the voter registration
lists. Therefore, the amount of additional funds for the program, related to the sale of the voter registration lists
could not be determined since the additional funds is net of program income and the cost to generate the lists.


                                                         16
	
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
